1

IN THE SUPREME COURT OF THE UNITED STATES
No.
MARIA M. ROSAS, Petitioner
v.
CHICAGO POLICE DEPARTMENT, an agency of the CITY OF CHICAGO;
MADDEN MENTAL HEALTH CENTER, a State of Illinois Hospital; ADVOCATE
HEALTH AND HOSPITALS CORPORATION, doing business as ADVOCATE
CHRIST MEDICAL CENTER; and MACNEAL HOSPITAL, now known as VHS of
Illinois, Inc., Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the petition for a
writ of certiorari contains 4,054 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 28, 2021

(Pi M-CUL,- / ~
Maria M. Rosas, pro se
6333 South Lavergne Avenue
Chicago, Illinois 60638
Telephone: (773) 884-2140
E-mail: irmarosaswebsite@gmail.com

j

